VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS




                                                                    Veterans Benefits 

                                                                     Administration 

                                                                           Review of 

                                                                          Alleged Mail 

                                                                     Mismanagement at the 

                                                                     Baltimore VA Regional 

                                                                              Office 





                                                                                       July 14, 2014
                                                                                       14-03644-225
             ACRONYMS AND ABBREVIATIONS

FY           Fiscal Year
OIG          Office of Inspector General
PII          Personally Identifiable Information
VA           Veterans Affairs
VARO         Veterans Affairs Regional Office
VBA          Veterans Benefits Administration




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                            Telephone: 1-800-488-8244 

                           E-Mail: vaoighotline@va.gov

          (Hotline Information: www.va.gov/oig/contacts/hotline.asp) 

                                  TABLE OF CONTENTS 


VA OIG Management Advisory Letter to the Under Secretary for Benefits ..................................1
 

Under Secretary for Benefits’ Comments to OIG Recommendations .............................................4
 

Appendix A         Office of Inspector General Contact and Staff 

                   Acknowledgments ...............................................................................................7
 

Appendix B         Report Distribution..............................................................................................8
 
                  Report Highlights: Review of Alleged
                  Inadequate Mail Managment Controls
                  at the Baltimore VA Regional Office

Why We Did This Review                          inventory. Further, VARO management did
                                                not perform quarterly desk audits of staff
On June 19, 2014, the Acting Director of the    workspace as required.
Baltimore VA Regional Office (VARO)
alerted the OIG that approximately 8,000        As a result, more than 9,500 documents and
documents and claims folders for                80 claims folders lacked the oversight
80 veterans were inappropriately stored in a    necessary to ensure timely claims processing
supervisor’s office. Desk audits of staff       and the protection of veteran and employee
office space performed by VARO                  PII. A proactive approach to addressing
management revealed about 1,500 additional      these management issues is needed to
documents         containing       Personally   rebuild trust with veterans and other VA
Identifiable    Information     (PII)   were    stakeholders.
inappropriately stored in employees’
individual workspaces. We initiated this        What We Recommended
review to assess the allegations of a lack of
accountability for mail management and          We recommended the Under Secretary for
benefits claims processing at the VARO.         Benefits implement a plan to ensure proper
                                                control of documents and claims folders,
What We Found                                   staff training on mail handling and workload
                                                management, quarterly desk audits, and mail
A team of benefits inspectors dispatched to     mismanagement impact assessments at the
the Baltimore VARO from June 21 to              Baltimore VARO.
27, 2014, substantiated the conditions
reported. We determined a supervisor had        Agency Comments
inappropriately       stockpiled      about
8,000 documents in an office. Most of the       The Under Secretary for Benefits concurred
documents reviewed contained PII and            with our recommendations, provided an
consisted of processed and unprocessed          acceptable corrective action plan, and
claims-related mail with the potential to       quickly responded to ensure this mail was
affect benefits payments. Some veterans         processed. Further, the Under Secretary for
claims found in the supervisor’s office         Benefits directed a 100 percent regional
required additional processing actions to       office wide, facility, and desk audit for mail
finalize rating decisions or award benefits     or documents across the country.
payments.

Generally, these conditions occurred
because the VARO did not use available
controls to identify claims folders stored at
one location for a lengthy period or                       LINDA A. HALLIDAY
adequately monitor cycle-time performance              Assistant Inspector General
reports for its non-rating related claims               for Audits and Evaluations
                                           Review of Alleged Mail Mismanagement at VBA’s Baltimore VARO


VA OIG Management Advisory Letter to the Under Secretary for
Benefits (July 10, 2014)


                Department of
                Veterans Affairs                                     Memorandum
        Date:      July 10, 2014
       From:
                   Assistant Inspector General for Audits and Evaluations (52)
        Subj:
                   Review of Allegations of Mail Management Controls at the Baltimore VA Regional
                   Office
         To:
                   Under Secretary for Benefits (20)

                   We are providing this memorandum to advise you that significant lapses in management
                   controls at the Baltimore VA Regional Office (VARO) have resulted in mail
                   mismanagement, claims processing delays, and inappropriate management of
                   unprotected personally identifiable information (PII) for veterans and VARO
                   employees. We initiated this review in response to allegations from the Veterans
                   Benefits Administration (VBA), received through the VA OIG Hotline, that the
                   Baltimore VARO lacked program management accountability related to mail handling
                   and benefits claims processing.

                   On June 19, 2014, and on the advice of VBA Regional Counsel, the Acting Director of
                   the Baltimore VARO alerted the OIG that approximately 8,000 documents and about
                   80 claims folders were being stockpiled in a supervisor's office. Additionally, desk
                   audits of staff's office space, directed by VARO management, revealed that
                   approximately 1,500 documents containing PII were inappropriately stored in
                   employees' individual workspaces.

                   In response to the seriousness of the allegations, we dispatched a team of benefits
                   inspectors to the Baltimore VARO from June 21 to 27, 2014, to confirm the conditions
                   reported. We also sought to determine the impact on veterans who needed their claims
                   information processed and why these conditions were not detected timely and managed
                   appropriately.
                   We substantiated several oversight weaknesses related to mail management, workload
                   management, and the protection of PII at the Baltimore VARO. We visited the office of
                   the supervisor who had allegedly been stockpiling claims-related information. We found
                   that the VARO had already begun action to sort through the volume of paper documents
                   and claims folders observed in his workspace. Claims folders located in the supervisor's
                   office include both rating and non-rating related work. Following are the various types
                   of inappropriately stored claims-related documents that required processing actions by
                   VARO staff.

                       Incomplete award processing actions related to disability determination decisions
                       Requests from service members to resume and/or discontinue compensation
                        benefits payments
                       Requests to adjust benefits payments by adding or removing dependents



VA Office of Inspector General                                                                                1
                                           Review of Alleged Mail Mismanagement at VBA’s Baltimore VARO




            Subject: OIG Review of Allegations of Mail Management Controls at the Baltimore VA Regional Office


                  	   Documents related to Federal matching programs affecting benefits payments,
                       such as Social Security death matches and reports of incarcerated veterans from the
                       Bureau of Prisons
                      Controlled and uncontrolled claims for benefits
                      Reports of veterans hospitalization that in some cases required benefits adjustments
                      Undistributed copies of notification letters and decision documents intended
                       for veterans' appointed representatives


                  A number of the claims stored in the supervisor's office involved retroactive benefits in
                  excess of $25,000 per veteran that had gone unpaid. VARO managers told us they
                  previously had visited the supervisor's office on multiple occasions but had not been
                  concerned about the conditions there. Management conceded the supervisor's office had
                  been disorganized, but attributed some of the disorganization to his move 3 months
                  prior from another office. VARO managers stated that the supervisor's previous office
                  also had been disorganized. Based on the volume of claims-related documents stored in
                  the office, management should have been viewed this stockpiling as a concern much
                  earlier.
                  We also observed one VARO employee using approximately five large locking
                  suitcases to transport veterans' claims folders to the office after teleworking at her
                  residence. We asked whether claims folders removed from the office by teleworking
                  employees were reconciled at the end of the telework period. VARO management
                  responded that the VARO's policy for employees who telework is the same as for those
                  who work in the office. That is, all employees are to use the Control of Veterans
                  Records System (COVERS) to record the location of files in their possession on a
                  weekly basis. As a best practice, the Baltimore VARO should consider modifying its
                  COVERS policy to require staff who telework to account for all claims folders removed
                  from the VARO at the end of the telework period.
                  Generally, these conditions occurred because the VARO did not use available controls
                  to ensure efficient and effective claims management. For example, management could
                  not recall the last time the VARO generated a COVERS aging report, identifying
                  claims folders stored at one location for a lengthy period. Had management generated
                  this report, it would have determined that one employee was holding claims folders for
                  an extraordinary period of time.

                  Additionally, VARO management did not adequately monitor cycle-time performance
                  reports for its non-rating related claims inventory. If management had done so, it could
                  have identified numerous non-rating related actions pending more than five days. In
                  several instances, we found claims waiting more than 10 months for finalization.
                  Management reported it generated cycle-time reports for its non-rating work; however,
                  we learned the supervisor responsible for monitoring this report was the same person
                  who had inappropriately stockpiled documents and claims folders in his office.
                  Further, VARO management did not ensure quarterly desk audits of staff workspace as
                  required. This control would have helped identify employees inappropriately storing PII




VA Office of Inspector General                                                                                   2
                                           Review of Alleged Mail Mismanagement at VBA’s Baltimore VARO




            Subject: OIG Review of Allegations of Mail Management Controls at the Baltimore VA Regional Office

                  and claims-related mail. The last desk audit conducted at the Baltimore VARO was in
                  March 2013, about 15 months ago.

                  In conclusion, program management accountability for mail and benefits claims
                  processing was generally lacking at multiple levels across the VARO. As a result, more
                  than 9,500 documents and 80 claims folders lacked the controls necessary to ensure
                  timely claims processing and the protection of veteran and employee PII. A proactive
                  approach to addressing these management issues is needed to rebuild trust with
                  veterans and other VA stakeholders.
                  Consequently, we recommend the following:

                  1.	 We recommend the Under Secretary for Benefits implement a plan to ensure
                      Baltimore VA Regional Office staff analyze and take appropriate actions to
                      properly control the approximately 9,500 documents and 80 claims folders
                      referenced in this report.
                  2.	 We recommend the Under Secretary for Benefits implement a plan to ensure
                      Baltimore VA Regional Office staff receive refresher training on proper mail
                      handling procedures.
                  3.	 We recommend the Under Secretary for Benefits implement a plan to ensure
                      Baltimore VA Regional Office supervisory staff receive refresher workload
                      management training.
                  4.	 We recommend the Under Secretary for Benefits implement a plan to ensure
                      Baltimore VA Regional Office staff conduct quarterly desk audits as required.
                  5.	 We recommend the Under Secretary for Benefits implement a plan to ensure
                      Baltimore VA Regional Office staff assess the impact that mismanaged mail and
                      claims processing actions had on benefits delivery and provide that information for
                      our review.

                  We were pleased to see VBA react quickly to alert us concerning the issues identified
                  at the Baltimore VARO. We will issue a final report upon receipt of official
                  management comments identifying VBA's corrective action plan for implementing our
                  recommendations. We would like to thank you for the cooperation extended to the OIG
                  during this review.




VA Office of Inspector General                                                                                   3
                                               Review of Alleged Mail Mismanagement at VBA’s Baltimore VARO


Under Secretary for Benefits’ Comments to OIG Recommendations



                 Department of                                            Memorandum
                 Veterans Affairs
         Date:          July 11, 2014

         From:          Under Secretary for Benefits (20)

         Subj:          OIG Review of Allegations of Mail Management Controls at the Baltimore VA Regional
                        Office
           To:          Assistant Inspector General for Audits and Evaluations (52)



                 1. 	   Attached is VBA’s response to the OIG Memorandum— OIG Review of Allegations of
                        Mail Management Controls at the Baltimore VA Regional Office.

                 2.     Questions may be referred to Catherine Milano, Program Analyst, at 461-9216.




                        Attachment




VA Office of Inspector General                                                                               4
                                      Review of Alleged Mail Mismanagement at VBA’s Baltimore VARO


                                                                                    Attachment

                             Veterans Benefits Administration (VBA)

                                 Comments on OIG Memorandum

              Review of Allegations of Mail Management Controls at the Baltimore VA 

                                          Regional Office 


     VBA greatly appreciates OIG’s quick response upon notification of the issues identified by the
     Acting Director of the Baltimore Regional Office. As a result, I have directed a 100 percent
     regional office wide, facility and desk audit for mail or documents across the country.

     VBA concurs with OIG’s findings and provides the following comments in response to the
     recommendations in the OIG Memorandum:

     Recommendation 1: We recommend the Under Secretary for Benefits implement a plan to
     ensure Baltimore VA Regional Office staff analyze and take appropriate actions to properly
     control the approximately 9,500 documents and 80 claims folders referenced in this report.

     VBA’s Response: Concur. Action is already underway to properly control the approximately
     9,500 documents and 80 claims folders. All mail is being scanned into the electronic system.
     As the documents are scanned, claims processing personnel are reviewing them and putting
     them under proper end product control.

     Target Completion Date: September 30, 2014

     Recommendation 2: We recommend the Under Secretary for Benefits implement a plan to
     ensure Baltimore VA Regional Office staff receive refresher training on proper mail handling
     procedures.

     VBA’s Response: Concur. A schedule is being developed to conduct refresher training on
     proper mail handling procedures. The refresher training will begin by August 25, 2014 and all
     personnel will complete the training by August 31, 2014.

     Target Completion Date: August 31, 2014

     Recommendation 3: We recommend the Under Secretary for Benefits implement a plan to
     ensure Baltimore VA Regional Office supervisory staff receive refresher workload
     management training.

     VBA’s Response: Concur. All supervisory staff members are attending VBA's Advanced
     Coaches 201 training, which provides instruction on workload management and other topics.
     These sessions are being conducted now through August 2014. Additional local workload
     management training will also be provided to all supervisors by the end of September.

     Target Completion Date: September 30, 2014

     Recommendation 4: We recommend the Under Secretary for Benefits implement a plan to
     ensure Baltimore VA Regional Office staff conduct quarterly desk audits as required.

     VBA’s Response: Concur. A schedule for quarterly desk audits was developed and is being
     implemented. An employee has been temporarily detailed into the Records Management
     Officer (RMO) position until the current RMO situation is resolved.

     Target Completion Date: Completed



VA Office of Inspector General                                                                        5
                                      Review of Alleged Mail Mismanagement at VBA’s Baltimore VARO


     Recommendation 5: We recommend the Under Secretary for Benefits implement a plan to
     ensure Baltimore VA Regional Office staff assess the impact that mismanaged mail and
     claims processing actions had on benefits delivery and provide that information for our review.

     VBA’s Response: Concur. Action is already underway to review the discovered mail and
     claims folders. All mail will be reviewed by September 30, 2014, after which the impact of the
     findings will be assessed. Information regarding the outcome of actions taken on the mail and
     claims folders and the associated impact will be provided to the OIG.

     Target Completion Date: December 30, 2014




VA Office of Inspector General                                                                         6
                                      Review of Alleged Mail Mismanagement at VBA’s Baltimore VARO


Appendix A          Office of Inspector General Contact and Staff
                    Acknowledgments

                      OIG Contact 	                For more information about this report, please
                                                   contact the Office of Inspector General at
                                                   (202) 461-4720.
                      Acknowledgments	             Nora Stokes, Director
                                                   Kyle Flannery
                                                   Suzanne Love
                                                   Michelle Santos-Rodriguez




VA Office of Inspector General                                                                  7
                                   Review of Alleged Mail Mismanagement at VBA’s Baltimore VARO


Appendix B          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Benefits Administration
                    Assistant Secretaries
                    Office of General Counsel
                    Veterans Benefits Administration Eastern Area Director
                    VA Regional Office Baltimore

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget
                    U.S. Senate: Benjamin L. Cardin; Barbara A. Mikulski
                    U.S. House of Representatives: Elijah Cummings; John Delaney;
                      Donna F. Edwards; Andy Harris; Steny H. Hoyer; Dutch Ruppersberger;
                      John P. Sarbanes; Chris Van Hollen




                This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                               8
